No.

IN THE
SUPREME COURT OF THE UNITED STATES

Mary JillAllgever — PETITIONER
Cincinnati Ohio, et.al.—RESPONDENT(S)
PROOF OF SERVICE
I, Mary Jill Allgever, do swear or declare that on this date, served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or the party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within three calendar days.
The names and addresses of those served are as follows:
William C. Hicks (0068565)
Sr. Assistant City Solicitor
Room 214, City Hall
801 Plum Street
Cincinnati, Ohio 45202
Telephone: (513) 352-3329
Email:
WiIliam.hicks@cincinnati-oh.gov

Lauren Creditt Mai (0089498)
Sr. Assistant City Solicitor
Room 214 City Hall
801 Plum Street
Cincinnati, Ohio 45202
Telephone: (513) 352-4703
Email:
lauren.credittmai@cincinnati-oh.gov

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 27, 2021

14.

